No. ________
IN THE

Supreme Court of the United States
________________
ALLEN PEITHMAN, JR., AEP PROPERTIES, L.L.C., SHARON A. ELDER,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.
APPLICATION TO THE HON. NEIL M. GORSUCH
FOR A 30-DAY EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE EIGHTH CIRCUIT
Pursuant to Rule 13(5) of the Rules of this Court, Applicants Allen Peithman,
Jr., AEP Properties, L.L.C., and Sharon A. Elder move for an extension of time of 30
days, up to and including June 27, 2019, within which to file a petition for a writ of
certiorari.
1. Applicants will seek review of the judgment in United States v. Peithman,
917 F.3d 635 (8th Cir. 2019). A copy of the decision, dated February 27, 2019, is
attached as Exhibit 1. The current deadline for filing a petition for writ of certiorari
is May 28, 2019. This application is filed more than 10 days before the date the
petition is due. See Sup. Ct. R. 13.5. The jurisdiction of this Court is based on 28
U.S.C. § 1254(1).
2. Good cause exists for an extension. Applicants have recently retained
Kelsi Brown Corkran and E. Joshua Rosenkranz of Orrick, Herrington & Sutcliffe
LLP as new counsel, and therefore seek a 30-day extension to June 27, 2019, so that

new counsel can review the record, study the relevant case law, and prepare a
petition. An extension is further justified by the press of business on numerous
other matters. The undersigned is responsible for presenting oral argument on May
6 before the Central District of California in Rhodeman v. Ocwen, No. 5:18-CV02363-JGB-KK. The undersigned is also responsible for assisting in preparation for
oral argument before the Fifth Circuit in Cain v. White, No. 18-30955, on April 30,
and before the Fourth Circuit in Krakauer v. DISH Network, L.L.C., No. 18-1518, on
May 9. Co-counsel E. Joshua Rosenkranz is responsible for oral argument on May 9
before the Fourth Circuit in Krakauer v. DISH Network, L.L.C., No. 18-1518; a
petition for certiorari due on May 14 to the U.S. Supreme Court in Ramos v.
Superior Court, Cal. Ct. App. No. A153390; a reply brief due on May 23 to the Texas
Supreme Court in Credit Suisse AG v. Claymore Holdings, LLC, No. 18-0403; a
respondent’s brief due on May 28 to the California Court of Appeal in Gibbons v.
AXIA Acquisition Corp., No. B288031; and an oral argument likely to be scheduled
between July 8 and 12 before the Federal Circuit in Idenix Pharmaceuticals LLC v.
Gilead Sciences Inc., No. 18-1691. An extension of time will help to ensure that the
petition clearly and thoroughly presents the vitally important and complicated
issues raised by the Eighth Circuit’s decision.
3. This case presents a substantial question of law on which the federal
courts of appeals are divided. Several federal statutes authorize the government to
seek forfeiture in connection with a criminal conviction. In Honeycutt v. United
States, 137 S. Ct. 1626 (2017), this Court held that one of those statutes—21 U.S.C.

2

§ 853(a)(1), which applies to convictions for certain drug offenses—does not permit
joint and several forfeiture orders against co-conspirators. The issue in this case is
whether another forfeiture statute—18 U.S.C. § 981(a)(1)(C), which applies to
convictions for a far broader range of offenses—likewise does not authorize joint and
several orders.
The courts of appeals are sharply divided on that question, as the Eighth
Circuit acknowledged in this case. See 917 F.3d at 652 (“not[ing] a circuit split … on
the question of whether Honeycutt applies to criminal forfeitures under
§ 981(a)(1)(C)”); see also United States v. Reed, 908 F.3d 102, 127 (5th Cir. 2018)
(noting the “burgeoning circuit split” on the issue). The Third Circuit has held that
joint and several forfeiture orders are impermissible under § 981(a)(1)(C), United
States v. Gjeli, 867 F.3d 418 (3d Cir. 2017), and the Eleventh Circuit has strongly
signaled its agreement, United States v. Carlyle, 712 F. App’x 862, 864-65 (11th Cir.
2017). Both courts emphasized the textual similarities between § 981(a)(1)(C) and
§ 853(a)(1) and relied heavily on Honeycutt’s reasoning. See id. In at least one other
circuit, the government has conceded that § 981(a)(1)(C) does not permit joint and
several orders. See United States v. Gil-Guerrero, No. 17-773-CR, 2018 WL 6720837,
at *4 (2d Cir. Dec. 21, 2018).
The Sixth and Eighth Circuits, in contrast, have held that § 981(a)(1)(C)
permits joint and several forfeiture orders. Peithman, 917 F.3d at 650-52; United
States v. Sexton, 894 F.3d 787, 799 (6th Cir. 2018). They distinguish Honeycutt by
identifying certain textual differences between § 981(a)(1)(C) and § 853(a)(1). See id.

3

4. This Court’s review is necessary to settle the conflict among the circuits
and to ensure uniformity in the enforcement of federal statutes. Honeycutt read
§ 853(a)(1) to bar joint and several forfeiture orders in light of its plain text and
bedrock principles of forfeiture liability. Section 981(a)(1)(C) bars joint and several
orders for the same reasons, as the Third and Eleventh Circuits have explained—
and as the government has conceded in at least one other court of appeals. The
Eighth Circuit’s contrary holding in this case misconstrues the plain language of
§ 981(a)(1)(C), ignores longstanding forfeiture principles, and contravenes
Honeycutt.
5. For the foregoing reasons, Applicants hereby request that an extension of
time be granted, up to and including June 27, 2019, within which to file a petition
for a writ of certiorari.
Respectfully submitted,
s/ Kelsi Brown Corkran
Kelsi Brown Corkran
Counsel of Record
ORRICK, HERRINGTON & SUTCLIFFE LLP
1152 15th Street, N.W.
Washington, D.C. 20005
(202) 339-8400
kcorkran@orrick.com

April 29, 2019

4

